NOS. 20-429, 20-454, 20-539

IN THE

Supreme Court of the United States
AMERICAN MEDICAL ASSOCIATION, ET AL.,
Petitioners,
v.
XAVIER BECERRA, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.
On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit
OREGON, ET AL.,
Petitioners,
v.
XAVIER BECERRA, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.
On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit
XAVIER BECERRA, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.
On Writ of Certiorari to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF SERVICE
KRISTEN K. WAGGONER
JOHN J. BURSCH
COUNSEL OF RECORD
DAVID A. CORTMAN
KEVIN H. THERIOT
RORY T. GRAY
ERIN MORROW HAWLEY
ALLIANCE DEFENDING FREEDOM
440 First Street, N.W., Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

It is hereby certified that all parties required to be served have been served
with copies of the Reply of AAPLOG, CMDA, and CMA in Support of Motion to
Intervene or to Present Oral Argument as Amici Curiae, via email and first-class
mail, postage prepaid, this 22nd day of March, 2021.
s/ John J. Bursch
KRISTEN K. WAGGONER
JOHN J. BURSCH
COUNSEL OF RECORD

DAVID A. CORTMAN
KEVIN H. THERIOT
RORY T. GRAY
ERIN MORROW HAWLEY
ALLIANCE DEFENDING FREEDOM
440 First Street, N.W., Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

1

